<html>
<title> - [H.A.S.C. No. 115-10] OVERVIEW OF MILITARY REVIEW BOARD AGENCIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 115-10]

               OVERVIEW OF MILITARY REVIEW BOARD AGENCIES

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 2, 2017

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-682                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 















                                     
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    MIKE COFFMAN, Colorado, Chairman

WALTER B. JONES, North Carolina      JACKIE SPEIER, California
BRAD R. WENSTRUP, Ohio, Vice Chair   ROBERT A. BRADY, Pennsylvania
STEVE RUSSELL, Oklahoma              NIKI TSONGAS, Massachusetts
DON BACON, Nebraska                  RUBEN GALLEGO, Arizona
MARTHA McSALLY, Arizona              CAROL SHEA-PORTER, New Hampshire
RALPH LEE ABRAHAM, Louisiana         JACKY ROSEN, Nevada
TRENT KELLY, Mississippi
                 Dan Sennott, Professional Staff Member
                Craig Greene, Professional Staff Member
                         Danielle Steitz, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Coffman, Hon. Mike, a Representative from Colorado, Chairman, 
  Subcommittee on Military Personnel.............................     1
Tsongas, Hon. Niki, a Representative from Massachusetts, 
  Subcommittee on Military Personnel.............................     2

                               WITNESSES

Blackmon, Francine C., Deputy Assistant Secretary of the Army 
  (Review Boards)................................................     3
Teskey, Mark S., Director, Air Force Review Boards Agency........     6
Woods, Robert L., Assistant General Counsel for the Assistant 
  Secretary of the Navy for Manpower and Reserve Affairs.........     5

                                APPENDIX

Prepared Statements:

    Blackmon, Francine C.........................................    28
    Coffman, Hon. Mike...........................................    27
    Teskey, Mark S...............................................    51
    Woods, Robert L..............................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................    61
    Ms. Tsongas..................................................    61

Questions Submitted by Members Post Hearing:

    Ms. Tsongas..................................................    65
    
    
    
    
    
    
    
               OVERVIEW OF MILITARY REVIEW BOARD AGENCIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                           Washington, DC, Thursday, March 2, 2017.
    The subcommittee met, pursuant to call, at 11:22 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Coffman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE COFFMAN, A REPRESENTATIVE FROM 
     COLORADO, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Coffman. The subcommittee hearing is called to order. I 
want to welcome everyone to the first hearing of the Military 
Personnel Subcommittee in the 115th Congress. I wish to 
congratulate the new and returning members of the subcommittee, 
and particularly congratulate our new ranking member, 
Congresswoman Jackie Speier, who is not here right now, of 
California.
    I look forward to working with each of you on the important 
issues facing this subcommittee. The purpose of today's hearing 
is to receive an overview of the military review board 
agencies.
    The Board for Correction of Military Records and Discharge 
Review Board provide extraordinarily important services for our 
service members and veterans. These boards are charged with the 
difficult mission of correcting errors in, and considering 
mitigating facts and removing injustices from, our military 
records.
    They receive thousands of applications every year that 
request everything from name changes on personnel documents to 
discharge upgrades. Over the past several years, many have 
raised concerns regarding application processing, backlogs, and 
the approval rates for discharge upgrades.
    Many have also raised concerns about the treatment of 
applicants with PTSD [post-traumatic stress disorder] or TBI 
[traumatic brain injury] who are seeking discharge upgrades 
based on mitigating medical facts in order to obtain essential 
behavioral health treatment.
    Congress has passed substantial legislation designed to 
help remedy some of these issues, and the services have 
continued to work to ensure that each applicant receives 
timely, full, and fair consideration for their case. I look 
forward to hearing whether these combined efforts have been 
effective and if any additional legislation may be beneficial.
    I am also interested to hear from the witnesses about 
additional challenges they face in the timely processing of 
applications and what resources are needed to overcome these 
challenges.
    Finally, I look forward to hearing about ways to improve 
applicants' access to the boards by leveraging new technologies 
like video teleconferencing.
    Before I introduce our panel, let me offer the ranking 
member, Ms. Speier--Ms. Tsongas, an opportunity to make her 
opening remarks.
    [The prepared statement of Mr. Coffman can be found in the 
Appendix on page 27.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
       MASSACHUSETTS, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Tsongas. Thank you, Mr. Chairman. Ms. Speier would be 
here, but an Intelligence Committee briefing had not concluded 
that she had to stay to see through. And so I am happy to be 
here in her behalf and read her opening statement.
    So thank you, Mr. Chairman, for convening this hearing 
today, and thank you to our witnesses for your testimony to the 
subcommittee. I don't envy you as you probably have some of the 
most difficult jobs in the Pentagon, but also some of the most 
important.
    As the civil servants charged with ensuring that the 
service of our military members is fairly characterized and 
accurately reflected in their records, there are long-term 
consequences of your boards' decisions.
    Not only financial consequences, although healthcare and 
education benefits do often hang in the balance, but more 
significantly, those decisions have the potential to make our 
veterans mentally whole and restore dignity and pride to them 
and their families.
    This is particularly true when we consider that only 
recently have we started to understand the possible behavioral 
consequences of post-traumatic stress disorder, traumatic brain 
injury, chronic traumatic encephalopathy, and military sexual 
trauma.
    We must make sure that the boards make every possible 
effort to take these factors into account when considering a 
request to upgrade discharge status. We need to ensure that 
mitigating conditions are taken into account.
    All too many service members feel that there is a stigma 
associated with the PTSD diagnosis and may be hesitant to seek 
appropriate care and documentation.
    All too many military sexual trauma, or MST survivors, an 
estimated 80 percent, do not report their assault and suffer 
alone. Worst, many sexual assault survivors who received either 
an honorable or general discharge are also branded with a 
diagnosis of, quote, ``personality'' unquote, or, quote, 
``adjustment'' unquote, disorders on their DD-214 [Certificate 
of Release or Discharge from Active Duty], when in fact all 
that has happened is that they were sexually assaulted.
    These diagnoses, which have a limited basis in science, 
make it hard for survivors to find employment in the civilian 
world. One survivor told me quote, ``I feel like I have a 
scarlet letter on my chest.'' And while I am speaking here for 
Ms. Speier, I have certainly heard the same thing.
    Equitability is another factor that you all must consider. 
Thanks to your staffs for providing recent statistics on the 
rate of discharge upgrades, but I am struck by some of the 
disparities I see, not just across services, but also across 
the different types of claims.
    To choose one metric, the evidence required to support MST 
claims seems to vary widely across services with some requiring 
formal documentation that a survivor who chose not to report, 
and remember that is 80 percent of all survivors, may not be 
able to provide.
    There may be valid, underlying reasons for these 
differences, but I am sure we all agree that supporting 
survivors is our top priority. I look forward to learning more 
about the reasoning behind these differences today.
    Your jobs are also difficult because your organizations 
are, frankly, overwhelmed. Your caseload is enormous and the 
backlogs are stunning. That caseload will only expand.
    The President talks about spending billions to increase our 
military end strength, but that comes with the responsibility 
to make sure that each and every one of these new service 
members are taken care of on the back end of their military 
careers. Part of that task falls to you.
    So I hope we have a chance to talk today about what we can 
do to address that now. Specifically, I would appreciate your 
views on achieving efficiencies through the consolidation of 
boards across the services. Thank you again, and I look forward 
to hearing your testimony.
    Mr. Coffman. Thank you, Ms. Tsongas. We are joined today by 
an outstanding panel. We will give each witness the opportunity 
to present his or her testimony and each member an opportunity 
to question the witnesses.
    We would respectfully remind the witnesses to summarize to 
the greatest extent possible the high points of your written 
testimony in 5 minutes or less. Your written comments and 
statements will be made part of the hearing record. Let me 
welcome our panel.
    Ms. Francine Blackmon, Deputy Assistant Secretary of the 
Army for Review Boards. Mr. Robert Woods, Assistant General 
Counsel for the Assistant Secretary of the Navy for Manpower 
and Reserve Affairs. Mr. Mark Teskey, Director of the Air Force 
Review Boards Agency.
    With that, Ms. Blackmon, you may make your opening 
statement please.

 STATEMENT OF FRANCINE C. BLACKMON, DEPUTY ASSISTANT SECRETARY 
                  OF THE ARMY (REVIEW BOARDS)

    Ms. Blackmon. Thank you, sir. Chairman Coffman, ranking 
member, distinguished members of this committee, I thank you 
for the opportunity to appear before you on behalf of the Army 
Review Boards Agency.
    The Army Review Boards Agency provides the highest 
administrative level of review for personnel actions taken at 
lower levels of the Army. The agency administers 13 boards to 
include 3 statutory boards, the Board for Correction of 
Military Records, the Discharge Review Board, and the Grade 
Determination Review Board. The remaining boards are policy 
boards.
    The Army Review Boards Agency staff consist of 112 civilian 
employees and 16 soldiers. In addition, 120 employees serve as 
volunteer board members for the Army Board for Correction of 
Military Records.
    These volunteers are senior civilian employees drawn from 
across the Army secretariat and Army staff. The Army Review 
Boards Agency administratively reviews and corrects service 
members' records involving impropriety, inequity, changes in 
policy and law, and even human error.
    The Army Review Board Agency acts in the interest of 
justice, applying equity and compassion when considering the 
merits of an individual case. The agency processes 
approximately 22,000 cases annually.
    My vision is for the agency to be adaptable, cohesive, and 
a collaborative team of highly qualified, responsive, and 
compassionate professionals. I expect them to be dedicated to 
customer service, transparency, justice and equity, and to 
carefully weigh the interests of soldiers, veterans, the Army, 
and the public. We strive to implement efficient and effective 
processes with the best technology available.
    We recognize that upgrading discharges is one of the most 
important functions of this agency. The Army has successfully 
implemented the Secretary of Defense's 2014 guidance to the 
Board for Correction of Military Records for a request to 
upgrade a veteran's discharge characterization where PTSD may 
have been a contributing factor.
    In those cases for veterans who claim PTSD, to include 
those who serve before PTSD was a recognized diagnosis, boards 
give liberal consideration to evidence of PTSD symptoms in the 
service record or in a diagnosis provided by civilian 
providers. Moreover, special consideration is given to a 
Department of Veteran Affairs diagnosis of PTSD or PTSD-related 
conditions.
    To implement 2015 NDAA [National Defense Authorization Act] 
requirements to enhance participation of behavioral health 
professionals on these boards, we have added neurologists, a 
psychiatrist, and three clinical psychologists to our medical 
advisor's office. Agency medical professionals provide in-
person or written input for board consideration for each of 
these types of cases.
    Another type of invisible wound in which we liberally 
consider cases are those in which the applicant contends that 
they were victims of sexual assault while in the military. We 
recognize that many of these assaults were never reported to 
military law enforcement, meaning there is no corroborating 
police report for the board to consider.
    Because of this, in the last year, we have trained all 
agency personnel on the markers of sexual trauma so that 
victims receive the most favorable possible outcome from their 
case. This training was provided by a renowned forensic 
psychologist, and is in addition to the statutory requirement 
for advisory opinions for the Board for Correction of Military 
Records and mental health professionals serving on the 
Discharge Review Board.
    We continually look for ways to better serve the soldiers, 
veterans, and family members who apply to one of our boards. To 
this end, 2 years ago we made an agency policy change to hold 
cases open 90 days in order to secure corrections to deficient 
applications.
    Other changes included direct communications with 
applicants to clarify issues or request additional 
documentation to help their cases, as well as conducting 
periodic board member and agency staff training on current 
service policies and procedures.
    The men and women who serve our Nation, along with their 
families, are our most important asset. The Army Review Board 
Agency is one of the ways we take care of our most important 
asset. I thank all of you for your continued support of our 
volunteer Army and the Army Review Boards Agency. Thank you.
    [The prepared statement of Ms. Blackmon can be found in the 
Appendix on page 28.]
    Mr. Coffman. Thank you, Ms. Blackmon, for your testimony.
    Mr. Woods, you are now recognized for 5 minutes.

STATEMENT OF ROBERT L. WOODS, ASSISTANT GENERAL COUNSEL FOR THE 
   ASSISTANT SECRETARY OF THE NAVY FOR MANPOWER AND RESERVE 
                            AFFAIRS

    Mr. Woods. Good morning, Chairman Coffman, ranking member, 
and distinguished members of the subcommittee. I am Robert 
Woods, the Assistant General Counsel for Manpower and Reserve 
Affairs. As such, I am the senior legal advisor to the 
Assistant Secretary of the Navy for Manpower and Reserve 
Affairs. And on behalf of the men and women of our various 
naval review boards, I thank you for the opportunity to appear 
before you today to have this overview of our review boards.
    Let me start by assuring you that the leadership of the 
Department of the Navy is committed to assisting our present 
and former sailors and marines with fair and open processes in 
regard to the subjects presented to our boards, including those 
seeking corrections to their military service records, such as 
adjustments to their discharge characterization.
    Over the past few years, we have paid particular attention 
to petitions involving invisible wounds. We have conducted 
outreach sessions with veteran service organizations, provide 
professional training for our staffs, prioritized the 
processing of these cases, obtain medical review and input, and 
apply liberal consideration principles to ease the burdens of 
proof for the veterans.
    However, I do note that every petition is unique, and those 
involving the effects of service-connected sexual assault, 
post-traumatic stress disorder, traumatic brain injuries, or 
various mental health issues are among the most difficult and 
complex cases that we see at our review boards.
    We are keenly focused on the need for timely resolution of 
our petitions to our boards. As such, we are engaged in efforts 
to help streamline and modernize our processes. However, we 
also recognize that much of the time needed to properly 
adjudicate these petitions is related to the increased 
complexity and volume of the materials presented.
    Now discharge upgrade petitions, including those seeking a 
change in the narrative reason for discharge and/or change in 
reenlistment codes, are adjudicated by our two primary boards, 
the Naval Discharge Review Board and our Board for Correction 
of Naval Records. These boards are established pursuant to 
specific statutory authority in title 10.
    And in addition to these boards, we also have seven non-
statutory boards including the Physical Evaluation Board, the 
Combat-Related Special Compensation Board, the Naval Complaints 
Review Board, the Naval Clemency and Parole Board, the Navy 
Department's Board of Decorations and Medals, the Disability 
Review Board, and the Personnel Security Appeals Board.
    So with this brief introduction, I, again, appreciate the 
opportunity to present to you, and I am happy to address any 
questions you may have about our review boards. Thank you.
    [The prepared statement of Mr. Woods can be found in the 
Appendix on page 37.]
    Mr. Coffman. Mr. Teskey, you are now recognized for 5 
minutes.

STATEMENT OF MARK S. TESKEY, DIRECTOR, AIR FORCE REVIEW BOARDS 
                             AGENCY

    Mr. Teskey. Good morning, Chairman Coffman, ranking member, 
distinguished members of the committee. On behalf of the men 
and women of the Air Force Review Boards Agency, thank you for 
the opportunity to appear today. With your permission, I am 
going to summarize my remarks and submit the complete statement 
for the record.
    As director of the Review Boards Agency, I am responsible 
for the administration, oversight, and leadership of 10 
appellate-level administrative review boards, 8 on behalf of 
the Secretary of the Air Force, and 2 on behalf of the 
Secretary of Defense.
    We receive approximately 15,000 cases annually from 
actively serving airmen, which include regular Air Force, Air 
Guard, Air Force Reserve, and civilian employees, veterans, and 
their families. Our non-statutory Air Force boards adjudicate a 
wide variety of decisions on behalf of the Secretary of the Air 
Force.
    The Air Force Review Boards Agency strives to quickly and 
fairly adjudicate its cases, and we do so. And we are falling 
further behind. Over the past 10 years, our business has 
materially changed. Four factors have significantly impacted 
the Air Force Review Boards Agency in both positive and 
negative ways.
    Our organizational transformation and modernization has 
solidified our processes, established metrics, and allowed us 
to leverage technology. Our increasing caseloads are increasing 
and more complex. We have resource constraints and we have 
legislative and regulatory changes that we are continually 
implementing.
    In 2011, the Secretary of the Air Force directed the Air 
Force Review Boards Agency to begin an extensive transformation 
effort. Our transformation efforts were long overdue and 
created significant challenges because we did them while we 
continued to process cases.
    We did not compromise on quality or fairness, and we 
implemented these process improvements temporarily sacrificing 
processing time in the near term with the aim of expanding our 
capacity and shortening processing time in the long term.
    We quickly realized the additional capacity generated by 
our process improvements was outpaced by an ever-increasing 
number of applications, and those applications were 
increasingly complex.
    We requested an Air Force manpower assessment in 2013, and 
that helped us determine that the agency was resourced 
appropriately. The assessment revealed significant human 
resource shortfalls and in the budget for fiscal year 2018 we 
secured an additional 18 military enlisted billets to increase 
staffing levels.
    We continue to work on monitoring, improving our processes, 
and coordinating with the Air Force leadership to balance our 
requirements with other critical resource demands like 
readiness, training, sustainment, and modernization.
    And recent legislative and regulatory changes have also 
levied the additional responsibilities on the boards. A perfect 
example is the emphasis on action on post-traumatic stress, 
traumatic brain injury, and sexual assault and similar 
injuries.
    The recent legislation required the Discharge Review Boards 
and the Boards for Correction of Military Records to review and 
consider upgrading discharge characterization of veterans who 
experience these conditions and were subsequently discharged 
with other-than-honorable discharges.
    Each of the four factors mentioned earlier place increased 
demands on our agency and its ability to provide prompt relief. 
We are doing all we can internally to secure the resources we 
need internally within the Air Force and to more effectively 
perform our statutory and regulatory duties.
    We are acutely aware that at the end of every one of our 
nearly 15,000 cases each year, there is an airman, a veteran, 
or a family member who is awaiting a decision. We are dedicated 
to these people and strive daily to provide fairness, equity, 
due process, and justice to all of our applicants.
    Mr. Chairman, I thank you again for the opportunity to 
appear before this committee and look forward to your 
questions.
    [The prepared statement of Mr. Teskey can be found in the 
Appendix on page 51.]
    Mr. Coffman. Thank you. According to the Military Discharge 
Review Boards, the data from fiscal year 2016, the Army 
upgraded 36 percent of cases with PTSD or TBI. However, the 
Navy and the Air Force only upgraded 18 percent and 15 percent 
of cases with PTSD or TBI respectively.
    Ms. Blackmon, could you please provide an explanation as to 
what the Army is doing differently to ensure that men and women 
who served and were diagnosed with PTSD or TBI receive an 
upgraded discharge?
    Ms. Blackmon. Sir, I will tell you when we actually 
received Secretary of Defense Hagel's guidance in November 
2014, one of the first things that we looked to do was to make 
sure that we have prioritized the cases. So in other words, 
they were not a part of the first-in, first-out.
    We were very careful to make sure that our mental health 
providers that actually set the case was very liberal in terms 
of looking at whether there was actually a nexus between the 
misconduct and the PTSD.
    And so in situations where we were looking at things like 
alcohol abuse or drug abuse and the mental health providers had 
essentially come back and said we do see a nexus, we were more 
liberal, if you will, in terms of upgrading those specific 
discharges.
    Mr. Coffman. Okay. Thank you.
    Following up on my previous question, Mr. Woods and Mr. 
Teskey, could you please explain why the percentage of cases 
you upgraded for those who claim PTSD or TBI are drastically 
lower than the United States Army's?
    Mr. Teskey.
    Mr. Teskey. Thank you. We go back and we took a look at the 
numbers and scrubbed those numbers, and we don't have as many 
discharges that are characterized in an unfavorable light, 
number one. For instance last year, Air Force-wide, we had 155 
UOTHCs [under other than honorable conditions] and we had 
43,000 discharges, roughly. So we don't have the numbers to 
deal with that the Army has as well.
    Mr. Coffman. Okay. Mr. Woods.
    Mr. Woods. Yes, sir. I haven't seen any of the cases that 
the Army has given their upgrades to, nor have I seen the cases 
for the Air Force. I can only speak to what the Navy has done.
    And in implementing the same exact principles, which are 
those of liberal consideration in trying to connect the dots 
between the condition of PTSD and the misconduct, these cases 
are dealt with on an individualized basis.
    And typically those that are not upgraded are ones in which 
we have been unable to make that connection between the PTSD 
and the misconduct, or the misconduct was of a nature that it 
was either fairly severe or it was otherwise intentional or 
things of that nature.
    And so all I can say is that we review each of these cases 
individually. We spend a fair amount of time on each of them 
and labor on them intently. And so I don't really know that I 
can explain the differences, quite frankly.
    Mr. Coffman. Thank you. Following my previous question, it 
is my understanding that Discharge Review Boards, DRBs, are 
only located in the Washington, DC area, which means that many 
veterans would find it cost prohibitive to fly themselves, 
their attorneys, or their supporting witnesses to testify in 
person at a DRB.
    Can you please detail how each service is implementing or 
at least testing the use of video teleconferencing, VTC, 
technology? I believe this is an important technology that will 
allow more veterans to provide personal testimony to the 
discharge boards without physically being present.
    Ms. Blackmon, why don't we start with you?
    Ms. Blackmon. Sir, in November of last year we actually 
reinstated our regional traveling panel. The first one was held 
in Atlanta, Georgia. We had potential--I think there were 26 
people that had signed up to actually participate. We actually 
received 19. We are looking to host our next panel in March 
over in Dallas, and we are looking to conduct these on a 
quarterly basis.
    Mr. Coffman. Thank you. Mr. Woods.
    Mr. Woods. Yes, sir. Our Discharge Review Board attempted 
to use video teleconferencing at one point, but we have run 
into a number of security-related struggles through our 
communications systems with the Navy.
    And so as an alternative, we have turned to telephonic 
interviews for personal appearances. And we have actually had 
quite a bit of success with them. We find that the petitioners 
appear to be somewhat more relaxed in their own environment, 
able to----
    Mr. Coffman. So I just want to make sure that when you 
speak to telephonic, that is not VTC?
    Mr. Woods. That is correct.
    Mr. Coffman. Oh, it is VTC?
    Mr. Woods. It is not.
    Mr. Coffman. It is not VTC. Okay, please.
    Mr. Woods. Exactly. It is through just a normal telephone 
line.
    Mr. Coffman. Okay.
    Mr. Woods. And we have a conversation with them and let 
them present any materials that they care to present and any 
arguments that they care to present. And we have had some very 
good success with that, both from the standpoint of having an 
increased rate of petitioners showing up to the actual personal 
appearance.
    Whereas, when we were having them in person, and we still 
do have some in person if folks are in the area or if they want 
to travel here, they are certainly able to have an in-person 
one at the Washington Navy Yard.
    We do not have a traveling panel that goes around the 
country. And we have found that the new telephone usage has 
really improved the capability of folks to come and do their 
presentation, and they seem to be satisfied with that.
    Mr. Coffman. All right. Mr. Teskey.
    Mr. Teskey. Our Discharge Review Board does do a traveling 
VTC.
    Mr. Coffman. Okay.
    Mr. Teskey. We do it at Robins Air Force Base in San 
Antonio, Texas, and then on the west coast. We typically have 
one member of our Discharge Review Board travel and set it up, 
and we hold it on a base.
    Part of that is to verify who is coming, so that we know 
who they are. And the other challenge that we have is getting 
past our own firewalls. We are evaluating other technology 
approaches to try to use something like Skype or FaceTime, but 
that is in the evaluation stage.
    Mr. Coffman. So what would you--it would seem like Skype 
would be fairly simple and would have the same principles of 
VTC. Well, I guess it wouldn't. You would--yes. No, I think it 
would.
    Mr. Teskey. It would. We have it in our military networks. 
Obviously, with security concerns----
    Mr. Coffman. Right, okay. I see,
    Mr. Teskey [continuing]. We have a problem getting past our 
firewall.
    Mr. Coffman. That is----
    Mr. Teskey. That is our challenge.
    Mr. Coffman. I get you. All right, that is--I understand 
that. Okay.
    Ms. Tsongas.
    Ms. Tsongas. Thank you. I would like to follow up on the 
issue of video, VTC technologies, and the use of that so that 
those who are seeking to have their characterization changed 
have that opportunity to make the personal story.
    And I would sort of like to extend it to the BCMRs [Boards 
for Correction of Military Records] where that is not the case, 
where the right to make that statement personally doesn't 
exist. And so the issue of the VTC is sort of a follow-on 
issue.
    And I know that the Human Rights Watch has really been 
carefully considering the ways in which these decisions are 
being made, and I think a former staff member on one of the 
boards made the point to the Human Rights Watch the importance 
of a personal appearance at the DRB as being, quote, ``huge'' 
and possibly, quote, ``the difference between getting an 
upgrade or not.''
    So in that context, last September there is here a Military 
Sexual Assault Prevention Caucus, and we hosted our second 
briefing on male military sexual assault. And at that briefing 
we heard from Heath Phillips, a former sailor who was 
repeatedly raped and retaliated against by fellow sailors and 
his chain of command as well.
    Phillips eventually left his ship saying, quote, ``I 
couldn't take it no more,'' unquote. Phillips said, quote, ``I 
was not going to go out to sea with these men and deal with 
this every single day,'' unquote.
    So he agreed to an under-other-than-honorable discharge 
rather than facing a court-martial for going AWOL [absent 
without leave]. And he said, quote, ``After being subjected to 
countless sexual assaults, beatings, threats, humiliation, in 
constant fear, a total basket case, I would have signed a deal 
with the devil himself to escape the torture I kept getting 
while onboard the ship,'' unquote.
    And while the VA [Department of Veterans Affairs] has found 
that he has PTSD that is 100 percent service-connected, he is 
still fighting after 20 years to get his discharge 
characterization upgraded. So he has told my staff, quote, 
``That my strong belief is if I am allowed a personal hearing 
and look them in the eyes and they could hear about my life and 
what I went through, the decision would not be denied.''
    So again, in the context of the BCMRs, I would just like to 
hear your thoughts on the feasibility of rethinking, of 
affording petitioners who requested an opportunity to appear. 
And as you are considering the use of video technology, whether 
or not that might be permitted in, you know, that more narrow 
version might be permitted in the BCMR context.
    And then we will start here with you.
    Ms. Blackmon. So ma'am, as I had indicated, we do within 
our Discharge Review Boards have the VTC capability. And so a 
situation as you had described, that would be certainly one 
that we would have had the traveling panels with the VTC 
equipment.
    Ms. Tsongas. So even though it is in the BCMR context, as 
opposed to the----
    Ms. Blackmon. Or BCMR, so with the personal appearance, 
typically we only do about two or three per year. With the 
Army, we are looking at a magnitude about 14,000 cases that we 
adjudicate, you know, with a record review. And so those 
individuals that do feel that their stories are compelling, 
there is an opportunity to do a personal appearance.
    Ms. Tsongas. And how to make that decision since it is not 
a right, it is a discretionary decision on your part?
    Ms. Blackmon. We essentially look at the records itself to 
see is there insufficient evidence within the material that the 
applicant has provided.
    And if we think there is information that is not there, 
that is lacking, then there is an opportunity to bring them in 
to get additional information. That would be one of the 
opportunities that we would look at to actually, you know, 
bring them in to say that we just don't have sufficient 
evidence with the records review.
    Ms. Tsongas. So this gentleman obviously served in the 
Navy, and the Navy has a different approach. I would welcome 
your thoughts.
    Mr. Woods. Yes, ma'am. Thank you. That is a tragic case, 
and I am sorry to hear the suffering that he is going through. 
The problem with having the personal appearances at the Board 
for Correction of Naval Records is really one of resources and 
the magnitude of the number of cases that we deal with there.
    We actually haven't given consideration to perhaps having 
some type of a set-aside for discharge review cases because 
that is a smaller portion of our overall work requirement 
there. So that is something that we certainly could look at.
    But typically what happens when a person petitions and 
requests a personal hearing, they are asked what the purpose of 
that personal hearing is. What do they want to accomplish with 
that personal hearing?
    And in the few cases that I have seen where those have been 
requested, they really don't articulate the type of rationale 
that you just described. I think that rationale that he just 
gave would probably be compelling if it was articulated to the 
board. But as far as I know, I have not seen that type of an 
argument made to garner a personal hearing.
    As I said, the magnitude of the caseload that we have at 
the board and the resources that we have, if we added personal 
hearings, a considerable number of them anyway, it would really 
stall things out considerably. And we are already pretty much 
at maximum capacity. So I think that would be problematic, but 
we would certainly be interested in considering it. Thank you.
    Ms. Tsongas. Well, we will certainly go back and revisit 
this with this gentleman who, as I said, has come to speak 
before the Military Sexual Assault Prevention Caucus and follow 
on. But I can't imagine that he is alone in his story. And I do 
think even though it might be costly, we are talking about 
something that has a real impact on people's lives.
    I have one more question if I could? Between 2000 and 2009, 
government reports reveal that thousands of service members 
were discharged improperly for a, quote, ``personality 
disorder'' unquote, many of whom were rape victims.
    Though their discharges were usually honorable, the 
narrative reason for discharge on their discharge paper, DD-
214, unfairly labels them as having a, quote, ``personality 
disorder'' unquote. This is deeply stigmatizing and may prevent 
them from getting jobs or benefits.
    Brian Lewis, a survivor of male sexual assault who also has 
briefed the Military Sexual Assault Prevention Caucus as well 
as testifying in front of the Senate Armed Services Committee, 
has said that as a result of his personality disorder 
diagnosis, he carries his, quote, ``discharge as an official 
and permanent symbol of shame on top of the trauma of the 
physical attack, the retaliation, and its aftermath,'' unquote.
    For veterans whose doctors confirm that they do not have a 
personality disorder, what prevents your offices from changing 
the narrative reason for discharge to the neutral, quote, 
``secretarial authority,'' unquote, as was done after the 
repeal of ``don't ask/don't tell'' for those who were 
discharged for their sexual orientation?
    And I will start to the right here since I kind of short-
circuited you in the previous round.
    Mr. Teskey. So could you repeat the last part of the 
question, ma'am?
    Ms. Tsongas. So, you know, for veterans whose doctors have 
confirmed that they do not have a personality disorder, what 
prevents your offices from changing the narrative reason for 
discharge to the more neutral, quote, ``secretarial authority'' 
unquote, which was done after the repeal of ``don't ask/don't 
tell'' for those who had been discharged for their sexual 
orientation?
    Mr. Teskey. Nothing prevents us, and we have, our Board for 
Correction of Military Records had considered exactly the type 
of cases that you are talking about, and we have changed the 
narrative or the reason for discharge on the 214s.
    So we do that on ``don't ask/don't tell'' on a regular 
basis. We have done it on sexual assault, sexual trauma cases 
as well. So we do address that.
    Ms. Tsongas. Do you have some sense of what the metrics 
are? Is it routine, automatic, or is it a complicated process?
    Mr. Teskey. So it is not a complicated process. Is it 
routine? We have a presumption or we regularly consider the 
facts of the case, and then we make an assessment. And we go 
back and forth with the applicant as well.
    When we do our, they submit the case, we evaluate it, and 
then we provide our analysis back to the applicant to see if 
they have anything additional they want to add, because we try 
very hard to be transparent and fair.
    Then they get a chance to respond, and then we, there can 
be this back and forth a couple of times so that they have the 
opportunity to submit additional information to prove their 
case.
    But what I found in reading the opinions of our board 
members is they are very generous, and they attempt to go out 
of their way to find a solution that is the right solution for 
the applicant.
    I have only been in the job since about December, so I am 
the new person on the table. But what I have seen is our 
members are very honorable and they are very considerate, and 
they really, really try to do the right thing.
    Ms. Tsongas. That is good to hear. Mr. Woods.
    Mr. Woods. Yes, ma'am, I think based on the factual pattern 
that you presented, I would find it to be highly unlikely that 
we wouldn't change not characterization necessarily, but the 
reason for discharge to secretarial determination.
    If the person presents medical evidence that refutes the 
original diagnostic, or even it might not have been a 
diagnostic, it may have just been simply an administrative 
determination of a personality disorder without a medical 
determination. That is entirely possible, especially back in 
the Vietnam era and later before, you know--or more recent 
times when we have become a little bit more aware of these 
kinds of situations.
    So we certainly have the capability of doing it and 
especially if there is refuting medical evidence. And in all of 
these cases, we do have them reviewed by a medical practitioner 
to try to determine whether or not there is evidence that would 
suggest that, in fact, there may have been a personality 
disorder situation. But that is not a change that we would be 
particularly reluctant to make, quite frankly.
    Ms. Tsongas. Do you have any sense of the numbers of the 
Air Force that has that?
    Mr. Woods. I am sorry, I don't. But I am happy to get 
those.
    Ms. Tsongas. Actually I would ask the question--I would 
like to ask that, if you could get back to me?
    Mr. Woods. I will take that for the record. Yes, ma'am.
    Ms. Tsongas. Yes, okay.
    [The information referred to can be found in the Appendix 
on page 61.]
    Ms. Blackmon. So ma'am, I would say very much like the Air 
Force and the Navy, the Army as well, as long as we have the 
appropriate documentation, we routinely change the narrative to 
reflect secretarial authority.
    Ms. Tsongas. Thank you, all. Appreciate your testimony.
    Mr. Coffman. Thank you, Ms. Tsongas.
    The statistics for approved discharges, discharge upgrades, 
appear low. What is the most common reason these applications 
are disapproved? What can the review boards do to help improve 
the quality of these applications? And lastly, can you explain 
how you apply quote/unquote, ``liberal consideration''?
    Ms. Blackmon, we will start with you.
    Ms. Blackmon. So sir, in terms of the reasons that we 
routinely deny would be for cases where we see there is not a 
nexus. For instance, we had a situation with an individual that 
had documented PTSD, and so as we looked at the specific case, 
there were instances with drunken and disorderly conduct, which 
the mental health providers could determine that there was a 
nexus between that misconduct and PTSD.
    However, in the same vein, there were challenges where this 
same individual had stolen checks from a roommate of about 
$500, taken them to the American Express, cashed them, and 
basically was larceny and forgery. So that particular instance, 
the mental health providers looked at it and said there was not 
a nexus between the misconduct and the PTSD. And so often we 
have cases that kind of mirror that.
    On the converse side of the house, we had a situation where 
there was an individual that came in, that essentially said, 
you know, ``the Army separated me with a disability separation. 
I was a rape victim.'' She says, ``I think it should have been 
a disability to retirement.''
    Unfortunately, the perpetrator had individuals that could 
corroborate his story. But as we looked at the case, we kind of 
looked at the behavior of the applicant and we could see that 
there was a downward spiral in behavior after this particular 
incident had happened. We saw the applicant had become indrawn, 
inwards, sullen.
    And so with that, we said there has to be a nexus. And so 
with that, we basically took her from a 20 percent disability 
separation to a 60 percent disability retirement and paid her 
back pay to 2002.
    Mr. Coffman. Okay. Thank you. Mr. Woods.
    Mr. Woods. Yes, sir.
    Mr. Coffman. Oh, I am sorry. Ms. Blackmon, can you explain 
how you--do you feel like you have adequately explained liberal 
consideration?
    Ms. Blackmon. Consideration? Exactly, because I think 
without that ability to say that it is black and white, we were 
looking at things that said there may not necessarily be the 
documentation there, but if you looked at----
    Mr. Coffman. Okay.
    Ms. Blackmon [continuing]. The markers, per se, there were 
other things that existed----
    Mr. Coffman. Okay.
    Ms. Blackmon [continuing]. Where we considered it liberally 
as opposed to just----
    Mr. Coffman. Okay. Very good.
    Ms. Blackmon [continuing]. A black and white case.
    Mr. Coffman. Okay. Mr. Woods.
    Mr. Woods. Yes, sir, first to the examples. We have 
provided a couple of examples in the written testimony, and I 
can summarize two of them that reflect both sides of the coin.
    The first was a Marine corporal who deployed in 2004 for 
Operation Iraqi Freedom, was suffering from PTSD as a result of 
that service, engaged in a single incident of marijuana use, 
positive at some point. And ended up with a disciplinary action 
and an unfavorable discharge.
    That was a case that we took into the board, reviewed the 
facts. And the fact that it was a one-time event, that it 
appeared relatively close after his return from the AOR [area 
of responsibility], and the fact that he did have a recognized 
diagnosis of PTSD, we thought that it made sense that that was 
likely to have a causal connection, and as a result we upgraded 
that particular discharge.
    On the other side of the coin, we had a Marine sergeant who 
had deployed twice, once in 2005 and the other in 2008, I 
believe, both for 6 months in support of Operation Iraqi 
Freedom. And after his return he was engaged in some 
misconduct, illegal drug use in particular, and was actually 
scheduled for separation.
    But in light of his performance and his combat tours and 
things of that nature, they held his discharge in abeyance and 
said we are going to, you know, hold this out there on the 
event that you are able to remain out of trouble for the next 
year.
    Unfortunately, 2 months later, he got in more trouble and 
was caught purloining copper gutters from a government building 
that were valued at about $15,000 and selling them downtown to 
a local salvage yard.
    And as a result of that, he was disciplined and set up for 
a discharge board before a board of officers where he was 
represented by counsel. That board of officers saw the evidence 
of the theft and as a result voted unanimously that he should 
have an under-other-than-honorable-conditions discharge.
    We couldn't find the connection there between the PTSD and 
the theft, and that was a case in which we did not grant 
relief. And so I don't want to say those are typical 
necessarily.
    But in a large sense they are in that, you know, when we 
are talking about singular incidents of misconduct relatively 
connected to the combat service and/or the PTSD issue and then 
a discharge, those are cases in which we would be more likely 
to grant relief.
    Whereas, if you are engaged in some type of conduct that is 
of the nature I just described or something along those lines, 
some type of intentional crime or harm that they did to 
someone, those are the cases in which we are going to be less 
likely. I think you asked a couple of other questions within 
there as well----
    Mr. Coffman. Sure.
    Mr. Woods [continuing]. And--address those as for you.
    Mr. Coffman. Yes. Just one follow-up on the----
    Mr. Woods. Yes, sir.
    Mr. Coffman [continuing]. On the case that you----
    Mr. Woods. Yes, sir.
    Mr. Coffman [continuing]. Just described. What was it? Do 
you recall if that was non-judicial punishment or did it 
receive summary special general court-martial?
    Mr. Woods. It appears that they took action via non-
judicial punishment, sir.
    Mr. Coffman. They did? Okay, very good.
    Mr. Woods. Back in preparation for the discharge board.
    Mr. Coffman. Okay. Okay, so what can the review boards do 
to help improve the quality of these applications?
    Mr. Woods. Right.
    Mr. Coffman. Yes.
    Mr. Woods. Well, that has been part of our outreach program 
of late, and we have been reaching out to veteran service 
organizations. In fact, our Naval Discharge Review Board 
created a pamphlet, which I believe we have provided to your 
staffs, that describes the process, gives them insight as to 
how to proceed in presenting their case and their petition to 
the board. And so they have been distributing those pamphlets. 
We also have information on our websites.
    And in addition, when a petitioner files their appeal, if 
it appears to our folks that there is either insufficient 
evidence to support their package, or we have some questions 
about it, there is a fair amount of back and forth between the 
staff and the petitioner.
    Mr. Coffman. Okay.
    Mr. Woods. And so those are some of the ways that we 
attempt to help folks proceed in front of our boards.
    Mr. Coffman. Okay.
    Mr. Teskey.
    Mr. Teskey. So to start out with, I will piggyback on what 
Mr. Woods was saying as far as how we are improving our process 
and how we are improving the applicants' ability to file claims 
or to file corrections, we do just as Mr. Woods said.
    When we do get an application, we have a lot of back and 
forth between the applicant and our claims examiners so that we 
can distill down what they need and what they can get. We also 
at times go to the record centers, go to the various sources of 
information on their behalf as well and request records.
    Mr. Coffman. Okay.
    Mr. Teskey. As part of our process, we also request 
advisories from the people who own the policies throughout the 
Air Force so that we can be further educated in our board. And 
we serve those advisories on the applicant as well so they are 
aware of what is going on.
    We have a reading room so that they can research our past 
cases. We are looking at--we have digitized our process----
    Mr. Coffman. Well, you----
    Mr. Teskey. Yes.
    Mr. Coffman. Mr. Teskey, when you say reading room, of 
course you are referring to that----
    Mr. Teskey. It is a virtual reading room, yes.
    Mr. Coffman [continuing]. It is available online? Okay. 
Very well.
    Mr. Teskey. Yes.
    Mr. Coffman. Okay.
    Mr. Teskey. And we also, as part of our modernization, we 
are looking at trying to facilitate electronic submissions and 
electronic applications. But, you know, we still have security 
issues----
    Mr. Coffman. Sure.
    Mr. Teskey [continuing]. And we are working through that. 
But we are trying to make this more accessible.
    Mr. Coffman. Okay.
    Mr. Teskey. Okay. So do you--and then I will go on to the 
other----
    Mr. Coffman. Liberal consideration. Yes.
    Mr. Teskey. Pardon me, sir?
    Mr. Coffman. Liberal consideration.
    Mr. Teskey. Okay. So liberal consideration, I can give you 
an example of where we use liberal consideration. First off 
though, whenever we deal with liberal consideration in our 
Discharge Review Board and our BCMR, we serve, we review the 
Secretary's memo, the Secretary of Defense's memo on liberal 
consideration.
    We also, the Secretary of the Air Force penned a memo on 
what liberal consideration means and we give that to the 
members as well. So we reiterate that and we hammer that home. 
We also deal with that through training of our members.
    So then I will give you an example of liberal 
consideration. We had a member who was an air controller over 
in Afghanistan, had a number of tours over there. Got PTSD, was 
diagnosed over there. But he sought some self-medication, and 
he got himself into trouble, and he just shared some of the 
medication Xanax with some of his colleagues.
    He also was married and he committed adultery. As part of 
his discharge, he was originally proposed for a court-martial. 
He took an Article 15.
    Mr. Coffman. Okay.
    Mr. Teskey. And then he got an under-other-than-honorable-
conditions discharge. He applied to the Discharge Review Board. 
We gave liberal consideration to the PTSD and the nexus between 
that and the drugs and the adultery, and the things that 
happened over in the theater, and we upgraded his discharge to 
a general under-other-than-honorable-conditions.
    Mr. Coffman. Thank you very much.
    And I would like to now defer to the ranking member, Ms. 
Speier.
    Ms. Speier. Mr. Chairman, thank you. And again, I apologize 
for the delay in my arriving, but as I think you have been 
told, I was in an important Intelligence Committee meeting.
    So one of the things that I am concerned about is the fact 
that there are such disparate grants provided by the various 
services. And for instance, the Army granted upgrades for four 
out of eight requests at 50 percent, the Air Force at 20 
percent and the Navy at 11 percent.
    And I would like to see it standardized because I think for 
our military service members, they should all be treated the 
same. And I don't know that they are being treated the same, 
and I don't know that outside of conversations you may have 
with each other from time to time, whether they truly are being 
treated the same.
    So let me ask you, Mr. Woods. You have the lowest 
percentage, and in particular as I look at MST, the others were 
at 50 percent and 20 percent, and you were at 11 percent. I 
have talked to all of you privately and have asked for 
additional information, which I think will certainly inform our 
work as we move forward on this issue, but I would like for 
you, in particular, Mr. Woods, to comment.
    Mr. Woods. Yes, ma'am. Thank you. I think that our dealings 
with these cases is such that I am not sure how to suggest 
consistency across the three services, and I am not sure there 
isn't consistency is the first point, because we have not 
really studied whether there is or there isn't.
    Obviously, the numbers would not reflect consistency, but 
given the nature of each individual case and the fact that they 
are determined individually based on the merits of those 
particular cases, in any given year or period, those numbers 
can certainly fluctuate. And I can't tell you that we aren't 
doing very similar things in the Navy boards as they are in the 
other services boards.
    I can at least--those----
    Ms. Speier. Well, for instance, Mr. Teskey, when he met 
with me, made a compelling case that in the Army they bend over 
backwards, give the benefit of the doubt, go the extra mile. 
And I didn't hear that when you met with me.
    Mr. Woods. Right.
    Ms. Speier. So not that you can extract anything from 
conversations, and that is why we would like to look at the 
cases themselves----
    Mr. Woods. Certainly.
    Ms. Speier [continuing]. Redacted, of course. But it would 
seem to me that there would be great benefit for standard 
policies to be put in place that would, you know, guide your 
decision making so that someone in the Navy who is making a 
request for an upgrade is treated the same way as someone in 
the Army.
    Mr. Woods. Makes total sense to me as well, and I am 
hopeful that----
    Ms. Speier. So let us look at----
    Mr. Woods [continuing]. That we are doing the same types of 
standards, but I can't tell you for sure whether we are or we 
aren't.
    Ms. Speier. Well, let's just look at military sexual 
trauma.
    Mr. Woods. Sure.
    Ms. Speier. Fifty percent grants in the Army and 11 percent 
grants in the Navy.
    Let me ask Mr. Teskey. How do you evaluate these cases that 
you would have 50 percent of them being changed?
    Mr. Teskey. Well, I am the Air Force, ma'am.
    Ms. Speier. Oh, I am----
    Mr. Teskey. So----
    Ms. Speier [continuing]. I am sorry.
    Mr. Teskey. It is all right, but I don't want to presume to 
speak for the Army. And that would be Ms. Blackmon.
    Ms. Speier. No, and I misspoke and I apologize, Ms. 
Blackmon. I got your services--so let's go to you, Ms. 
Blackmon.
    Ms. Blackmon. Yes. As I had indicated earlier, when we 
initially got the PTSD guidance in November 2014 that Secretary 
Hagel had sent out, I said we also need to apply the same very 
liberal consideration for military sexual trauma. And so we 
started to do certain things like training.
    For instance, last November, we brought in a renowned 
psychologist by the name of David Lisak that trained the entire 
workforce on sexual assault and what did that mean. Not 
necessarily just because there wasn't a police report or a CID 
[Army Criminal Investigation Command] report, that there were 
other markers that the board and the workforce should be 
considering as they actually wrote the case.
    And so as they started to look at it, it wasn't just very a 
black and white situation where it is we have this 
documentation, or because there was a lack of documentation we 
are going to deny it. It was more how can we say that there are 
other things that are happening that could suppose sexual 
assault as opposed to, no, it did not happen.
    We also brought in a panel of sexual assault survivors that 
kind of talked to the workforce as well to say as a result of 
that act, these were the things that manifested themselves 
within me as an individual and as a person.
    So that as our analysts, when we are writing the record of 
proceedings, they had the ability to kind of understand the 
impact of what that meant and what was happening to the victim, 
if you will.
    Ms. Speier. All right. With that background, Mr. Woods and 
Mr. Teskey, have you, for instance, brought in sexual assault 
survivors to have them explain to your board members the 
experience and the ramifications?
    Mr. Woods. To my knowledge, we have not brought in sexual 
assault survivors to do that. However, in response, back in the 
December timeframe, this past December, in some of our outreach 
efforts and then discussions with representatives from Human 
Rights Watch and in taking into consideration a report that 
they issued, we got concerned that perhaps we weren't paying 
the type of attention to some of these cases as we need to.
    And as a result, we partnered with our Department of the 
Navy Sexual Assault Prevention and Response Office and were 
able to have four of their subject matter experts, a medical 
doctor, a clinical psychologist, a trauma nurse, and a 
criminologist, take and look at the cases that we had done with 
regard to the sexual assault trauma over the past, give or 
take, 2-year period, 2015 and 2016.
    And they reviewed approximately 86 cases in great detail, 
with a view toward trying to determine whether or not we could 
establish some type of policy that would help us be cognizant 
of the concerns and issues that presented in these types of 
case, or as if we were missing something.
    And honestly they struggled in their review trying to 
connect the dots in the cases that we denied. They felt that 
the cases that we granted made a lot of sense.
    And what they recommended and what we are about to enter 
into is an agreement with them to use their expertise to gain 
advisory opinions. And we are even considering having one of 
their experts sit on any panel at the Board for Correction of 
Naval Records that would involve a claim of sexual assault.
    Ms. Speier. Okay. We are going to be running out of time, 
so Mr. Teskey?
    Mr. Teskey. So this past January we provided training to 
our Board for Correction of Military Records, which all the 
panel members are volunteers. We had a panel come in for about 
2 hours of----
    Ms. Speier. Of sexual assault survivors?
    Mr. Teskey. Not of survivors, but of mental health 
professionals and people who specialize in sexual assault to 
educate them on, as Ms. Blackmon was saying, on some of the 
characteristics and markers and to provide that training. That 
is one.
    We also have our psychiatrists who are members of the board 
on those kind of cases for the Discharge Review Board. They 
provide advisories to the Board for Correction of Military 
Records on any situation where there is an allegation of sexual 
assault, sexual trauma.
    So we do go out of our way to make sure that our members 
are educated, and as a result of our training this past year as 
well, we believe that more frequent engagement internally with 
our members on discussing these cases and bringing these issues 
up is required. And we are looking at probably doing kind of a 
6-month check-in with everybody for about a half a day on some 
of these issues that we need to drive home.
    Ms. Speier. So here is an area that I am very concerned 
about. If you had the Members of Congress, who, when they left 
office under whatever circumstances, had a similar ranking of 
honorable, general, or less-than-honorable, a lot of Members 
would leave with less-than-honorable discharges because of 
their behavior here.
    Now, they leave and they go out and they continue with 
their lives and presumably get jobs and do well. I worry about 
the service members who have been labeled with a general 
discharge or less-than-honorable and the likelihood of them 
ever getting employment.
    Now, I can tell you that there have been circumstances that 
I have seen where persons in civil society who have committed 
felonies can come back to the courts subsequently and make the 
case that they have been upstanding citizens for a period of 
time and have those felonies reduced to misdemeanors. And then 
be much more likely to find employment.
    I really want us to think about whether or not we should 
create a mechanism within these boards that will allow 
individuals to come back subsequently, after a period of years, 
make the case for their good behavior and potentially have 
those discharge identifications upgraded. And that is more a 
comment than anything else, but hopefully we can talk further 
about that and maybe do something in the NDAA about that.
    I would like to just spend a couple of minutes on VSOs 
[veteran service organizations]. To what extent have you 
incorporated feedback or recommendations from VSOs?
    Ms. Blackmon.
    Ms. Blackmon. So ma'am, we have----
    Mr. Coffman. Oh, could you please--let us go forward with 
more questions, but please limit your responses a little 
quicker please if you could. Thank you.
    Ms. Blackmon. Okay, sir. So, ma'am, we have had almost 100 
engagements with veteran service organizations where it is an 
opportunity to provide them feedback on what we do, and an 
opportunity for us to actually hear the things that we may not 
be doing that are so well. So we do have that interaction with 
them frequently.
    Ms. Speier. Okay. Mr. Woods.
    Mr. Woods. Likewise, we are engaged with the veteran 
service organizations quite a bit. As I have said before, we 
have created pamphlets for their use to distribute to those who 
are engaged in their organizations and we have tried to educate 
them on our processes. And we are happy and continue to do so. 
I can't say that we have done 100, but we have done quite a few 
outreaches as well.
    Ms. Speier. Have they made recommendations that you have 
embraced?
    Mr. Woods. Other than some of the things that we have been 
doing, which is to better inform the petitioners of materials 
that they might consider providing if they can to enhance their 
case.
    Also, too, one of the things that we have done in the Board 
for Correction of Naval Records is in any case where we have 
denied relief, we provide a short explanation of why that 
relief was denied and what the record was lacking such that if 
they feel that they can gather that information, they can come 
back and re-petition for reconsideration of that decision. And 
so with new and material evidence, if they present that, then 
we do that.
    So we have tried to explain to them instead of just getting 
a sheet of paper that essentially says denied, we have tried to 
educate them a little bit in that process at the end if we 
haven't been able to do that on the front end.
    Ms. Speier. Thank you. Mr. Teskey.
    Mr. Teskey. So we have not had that kind of outreach and 
engagement with the VSOs. However, one of the things as I came 
in in December, we have been looking at how we are going to 
pursue an outreach and education and communication plan. So 
that is one of the things we have been considering.
    Ms. Speier. All right. So to the extent that they provide 
you with recommendations, would you also provide them to the 
committee so we will have the benefit of knowing what they are 
looking for? Thank you.
    Mr. Chairman, I yield back.
    Mr. Coffman. Thank you, Ranking Member Speier.
    If we could, just one remaining question and to all three 
of you. Do the boards have a feedback mechanism to inform the 
services of common personnel record errors you are seeing?
    Ms. Blackmon.
    Ms. Blackmon. I would have to take that for the record.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. Coffman. Okay. Thank you. Mr. Woods.
    Mr. Woods. Same.
    [The information referred to was not available at the time 
of printing.]
    Mr. Coffman. Mr. Teskey.
    Mr. Teskey. I have talked with our personnel folks in A1 
[Air Staff office of Manpower and Personnel] as well about 
setting that up, because we feel like there needs to be a 
feedback loop so that they can correct things before we have to 
fix them.
    Mr. Coffman. Okay.
    Mr. Teskey. So we are setting that up.
    Mr. Coffman. Okay. Very good. Okay. I wish to thank the 
witnesses for their testimony this morning. This has been very 
informative. There being no further business, the subcommittee 
stands adjourned. Thank you very much.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]


      
=======================================================================



 
                            A P P E N D I X

                             March 2, 2017

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 2, 2017

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN

    Ms. Blackmon. The Army Review Boards Agency (ARBA) does have 
feedback mechanisms to inform the Army of common personnel record 
errors. Since ARBA is assigned to the Assistant Secretary of the Army 
for Manpower and Reserve Affairs (ASA (M&RA)), we have direct access to 
the personnel policy makers for the Army on a weekly, if not daily, 
basis. Additionally, ARBA's mission has a direct relationship with the 
Army G-1, the Human Resources Command (HRC), the Office of The Surgeon 
General, the Office of the General Counsel, and the Office of The Judge 
Advocate General. Accordingly, ARBA has frequent dialogue, meetings, 
and policy discussions with each of these offices, since many of our 
cases originate with them and/or ARBA works closely with the 
organizations for advisory opinions. Therefore, it is common practice 
to share with each of these organizations reoccurring personnel record 
errors that can be corrected through policy, procedures, and command 
guidance.   [See page 21.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. TSONGAS
    Mr. Woods. The Department of the Navy (DON) Boards change and will 
continue to change the narrative reason for discharge to ``Secretarial 
authority'' in petitions where there's sufficient evidence that the 
person doesn't actually have a personality disorder. We have and will 
continue to apply the SECDEF Hagel memorandum standard of ``liberal 
consideration'' to invisible wound cases (MST/PTSD). This memorandum 
was dated 3 Sept 2014, Subject: ``Supplemental guidance to Boards 
concerning veteran's claims to PTSD disorder.'' In FY16, the Naval 
Discharge Review Board (NDRB) adjudicated five petitions in which the 
Petitioner reported having been the victim of MST and had been issued a 
DD214 annotated with a narrative reason of ``personality disorder.'' 
The NDRB changed this narrative to ``Secretarial authority'' in the two 
petitions that presented evidence that the Petitioner did not have a 
personality disorder. All five of these petitioners were reviewed by 
trained medical personnel (Psychiatrist or Clinical Psychologist) and 
the medical evidence in the three petitions that were denied contained 
evidence that supported the original narrative reason. Following the 
hearing before the Subcommittee, the Director of the Board for 
Correction of Naval Records, on her own initiative, ordered a review of 
previously adjudicated petitions that requested a change of the 
narrative reason of ``personality disorder.'' This review identified 
eleven cases in which the Petitioner reported having been the victim of 
MST. The Director reviewed these cases and determined that the panels 
that had decided those cases did not appear to have properly applied 
the standard of ``liberal consideration.'' Therefore, she directed that 
these cases be re-adjudicated by new panels with proper instruction on 
the standard of ``liberal consideration.'' As a result, all eleven 
petitions were granted a change of the narrative reason for discharge 
to ``Secretarial authority.'' In addition, the Board's professional 
staff received refresher training on the standards for assessing these 
types of petitions. Finally, it should be noted that the DON is working 
with DOD Separation Standardization Working Group reviewing DOD Non-
Disability Mental Condition Separations. This group is, among other 
things, reviewing whether to retire many of the specific non-disability 
mental health separation program designator codes that drive the 
narrative reasons in block 28 of the DD Form 214, such as personality 
disorder.   [See page 13.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 2, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. Statutory deadlines requiring the BCMRs to complete 90 
percent of their cases within 10 months create enormous pressure to 
move cases quickly. Moreover, as the forces downsize, the expected 
caseloads for the boards may increase. Yet over the past decade 
staffing for the boards has stayed the same or decreased.
    a. What is the scope of the resource challenge that you face and 
how might Congress help? b. Without increased staffing, how can you 
ensure that cases are adequately reviewed, records are collected, and 
that veterans' claims are given full and fair consideration?
    Ms. Blackmon. a. Through the Army Review Boards Agency (ARBA) 
business processing reengineering efforts, we have collected data which 
helped the United States Army Manpower Analysis Agency to validate a 
requirement for 25 additional employees, which will return the agency 
to the 2002 baseline. ARBA is working with the Army Staff to authorize 
and hire additional staff.
    b. As cases have become more complex, processing times are 
lengthening. However, the agency focus remains on giving each 
applicant's claim full and fair consideration while providing 
determinations in a timely manner, within current case processing 
capacity. We expect that our business process reengineering and 
leveraging new technologies will allow for more efficient and timely 
processing of cases.
    Ms. Tsongas. We know that PTSD is more prevalent among sexual 
assault survivors than among combat veterans: an estimated one in three 
sexual assault survivors experience PTSD, as opposed to a 10 to 18 
percent prevalence rate of PTSD for combat veterans. Because the vast 
majority of sexual assault survivors do not report that they were 
victimized, however, they may not have been formally diagnosed with 
PTSD while in service. Accordingly, how do you intend to ensure that 
the protections for former service members diagnosed with PTSD in the 
NDAA for FY 2017 are also extended to victims of sexual assault?
    Ms. Blackmon. The Army Review Boards Agency provides special 
processing for cases in which the applicant contends they were a victim 
of sexual assault. ARBA recognizes that many of these assaults were 
never reported to military law enforcement, meaning there is no 
corroborating police report for the board to consider. Similar to ARBA 
processing of PTSD claims, the applicant is asked to provide any 
additional documentation they have related to their claim while their 
case is placed on administrative hold. Each case is reviewed by the 
psychiatrist or psychologist on the ARBA staff and they either 
participate as a board member or provide an advisory opinion for board 
consideration. In compliance with applicable law, any written advisory 
opinion they render is provided to the applicant for review and 
response prior to consideration. In the fall of 2016, all agency 
personnel were trained on markers of sexual trauma by a renowned 
forensic psychologist and were briefed by a panel of sexual assault 
survivors on the impact to them as sexual assault victims. This 
training is in addition to the statutory requirement for advisory 
opinions or serving board members as described above.
    Ms. Tsongas. Federal regulations require the BCMRs and DRBs to make 
all their decisions publicly available. Moreover, decisions are 
required to be indexed ``in a usable and concise form so as to enable 
the public to identify those cases similar in issue together with the 
circumstances under and/or reasons for which the board and/or Secretary 
have granted or denied relief.'' In this way, applicants and their 
lawyers should be able to search for cases to determine applicable 
standards and present their arguments accordingly. However, in reality, 
the reading rooms are very basic, consisting of a list of case numbers. 
Except for the Coast Guard, which has a bare-bones indexing system, 
none of the services indexes its cases at all.
    a. What constraints prevent the boards from indexing and 
summarizing case decisions? b. Why do each of the services use 
different computer systems for maintaining its records? Why wouldn't it 
be more efficient and cost effective to consolidate data systems?
    Ms. Blackmon. a. The Army Review Boards Agency posts redacted 
versions of the records of proceeding or the case report and directives 
that provide a summary for applications considered by the Army Board 
for Correction of Military Records and the Army Discharge Review Board 
respectively. The documents are posted quarterly and organized by year 
and case number. The advance search feature of the reading room support 
a basic word search of the documents. Efforts to go back and modify 
over 111,000 documents would require significant, intensive manpower 
efforts; however, going forward we will overhaul search functionality, 
and enhance user experience through intuitive interface and 
instructional content.
    b. ARBA currently uses a case tracking system specifically 
developed for Army Review Boards Agency requirements. As a part of the 
agency's business process reengineering, requirements are being 
identified for a replacement system that meets the unique future needs 
of the Army Review Boards Agency. This review will certainly provide 
the opportunity for the Army to consider the ``consolidated data 
systems'' approach.
    Ms. Tsongas. Statutory deadlines requiring the BCMRs to complete 90 
percent of their cases within 10 months create enormous pressure to 
move cases quickly. Moreover, as the forces downsize, the expected 
caseloads for the boards may increase. Yet over the past decade 
staffing for the boards has stayed the same or decreased.
    a. What is the scope of the resource challenge that you face and 
how might Congress help? b. Without increased staffing, how can you 
ensure that cases are adequately reviewed, records are collected, and 
that veterans' claims are given full and fair consideration?
    Mr. Woods. While we have complied with the mandate contained in 10 
U.S.C. Sec. 1559 to maintain or exceed our staffing levels on hand in 
2002, we realize that without continued efforts to increase the number 
and quality of staff and to improve our technology support protocols, 
we will not be able to meet the statutory deadline goals for processing 
petitions. In that regard, we have programmed for additional staff in 
the coming Fiscal Years and are in the process of upgrading our 
technological capabilities. Our workload has increased significantly in 
the intervening years since 2002 in terms of the number of cases 
received, complexity of cases, as well as an exponential increase in 
FOIAs, phone calls, emails, constituent Congressional inquiries, and 
the like. With continued growth in cases, it will continue to be 
difficult to meet the 90 percent goal in the near term. We are hopeful 
that we will eventually be able to routinely meet this goal as we 
increase our staffing levels and finalize our technological 
improvements. We remain committed to providing our Sailors, Marines and 
veterans with full and fair consideration of their petitions in as 
timely a manner as possible.
    Ms. Tsongas. We know that PTSD is more prevalent among sexual 
assault survivors than among combat veterans: an estimated one in three 
sexual assault survivors experience PTSD, as opposed to a 10 to 18 
percent prevalence rate of PTSD for combat veterans. Because the vast 
majority of sexual assault survivors do not report that they were 
victimized, however, they may not have been formally diagnosed with 
PTSD while in service. Accordingly, how do you intend to ensure that 
the protections for former service members diagnosed with PTSD in the 
NDAA for FY 2017 are also extended to victims of sexual assault?
    Mr. Woods. The Department of the Navy is currently working with the 
Office of the Secretary of Defense in development of supplemental 
guidance related specifically to sexual assault and sexual harassment 
cases. We anticipate guidance by this summer. In the meantime, we 
generally apply the SECDEF Hagel memorandum standard of ``liberal 
consideration'' to these invisible wound cases. This memorandum was 
dated 3 Sept 2014, Subject: ``Supplemental guidance to Boards 
concerning veteran's claims to PTSD disorder.'' We also seek advisory 
opinions whenever there is evidence in the record, or a reference by 
the veteran, to sexual assault or harassment. We have an ongoing 
commitment to our veterans who have suffered invisible wounds.
    Ms. Tsongas. Federal regulations require the BCMRs and DRBs to make 
all their decisions publicly available. Moreover, decisions are 
required to be indexed ``in a usable and concise form so as to enable 
the public to identify those cases similar in issue together with the 
circumstances under and/or reasons for which the board and/or Secretary 
have granted or denied relief.'' In this way, applicants and their 
lawyers should be able to search for cases to determine applicable 
standards and present their arguments accordingly. However, in reality, 
the reading rooms are very basic, consisting of a list of case numbers. 
Except for the Coast Guard, which has a bare-bones indexing system, 
none of the services indexes its cases at all.
    a. What constraints prevent the boards from indexing and 
summarizing case decisions? b. Why do each of the services use 
different computer systems for maintaining its records? Why wouldn't it 
be more efficient and cost effective to consolidate data systems?
    Mr. Woods. The Board for Correction of Naval Records is currently 
developing a website that will allow indexing of summarized cases and 
enhanced search capabilities.
    Ms. Tsongas. Statutory deadlines requiring the BCMRs to complete 90 
percent of their cases within 10 months create enormous pressure to 
move cases quickly. Moreover, as the forces downsize, the expected 
caseloads for the boards may increase. Yet over the past decade 
staffing for the boards has stayed the same or decreased.
    a. What is the scope of the resource challenge that you face and 
how might Congress help? b. Without increased staffing, how can you 
ensure that cases are adequately reviewed, records are collected, and 
that veterans' claims are given full and fair consideration?
    Mr. Teskey. a. What is the scope of the resource challenge that you 
face and how might Congress help? The scope of the resource challenge 
the Air Force Review Boards Agency (AFRBA) faces is substantial. 
According to a 2013 manpower assessment, updated in 2015, the AFRBA is 
manned at 49 percent against validated requirements. While the agency 
is currently authorized 107 positions, the assessment indicated that 
218 positions are required to keep pace with the current workload, 
resulting in a shortfall of 111 positions. This shortfall is 
predominantly attributable to the dramatic increase in caseloads across 
the agency over the last several years. In 2008, the agency received 
over 9,100 cases; however, in subsequent years, cases received 
increased over 70 percent to more than 15,600 cases annually. These 
shortfalls dramatically impact the ability of all of our boards to 
ensure that all petitions receive full and fair consideration while 
also complying with statutory and regulatory timelines for 
adjudication. This is most acute in the Air Force Board for Correction 
of Military Records (AFBCMR) where Title 10, U.S.C., Section 1557 
requires the AFBCMR to adjudicate 90 percent of cases received during a 
fiscal year (FY) within ten months of receipt, with no individual case 
exceeding 18 months. The 90 percent requirement became effective for 
cases received during FY11. The AFBCMR adjudicated 96 percent of the 
nearly 2,400 cases received in FY11 within 10 months. For cases 
received during FY12, the last time we were able to comply with this 
mandate, the AFBCMR adjudicated 92 percent of over 2,900 cases received 
in FY12, an increase of more than 500 cases for adjudication than in 
the previous FYs. With 2,900 cases received for adjudication becoming 
the new normal, and with no requisite increase in staffing, the average 
age of a case at closure grew to ten months for cases received during 
FY13. As a result, the Board was only able to adjudicate 52.5 percent 
of almost 2,900 cases received during FY13 within ten months. The 
average age of a case at closure continued to climb, resulting in the 
Board adjudicating only 27.5 percent of the approximately 2,900 cases 
received in FY14 within ten months. The Secretary of the Air Force 
issued reports to Congress required by 10 USC 1557 for cases received 
in FY13 and FY14 and will issue a similar report this summer describing 
our inability to comply with the 90 percent mandate for cases received 
during FY15. We expect the reported compliance rate will continue to 
drop into the foreseeable future. Because individual board shortfalls, 
such as in the AFBCMR, can affect operations across the entire Agency, 
it's also important to consider manpower requirements in the AFRBA's 
other major boards. For example, neither the AF Discharge Review Board 
(AFDRB) nor other SAF Personnel Council (SAFPC) boards have the same 
statutory completion and reporting requirements as the AFBCMR. 
Nonetheless, the increasing case intake has the impact of creation of 
case load backlog and its nexus to critical staffing shortages is 
similar across the agency. Due to the existing manpower and increasing 
workload challenges, over the past several years, the AFRBA underwent 
an extensive transformation effort performing business process re-
engineering across doctrine, organization, training, material, 
leadership, personnel, facilities, and policy domains. These efforts 
resulted in numerous efficiency and effectiveness improvements 
including streamlining and digitizing all adjudication processes, 
Agency-wide organizational structure changes, and development of 
shared-service model directorates to share limited specialized and 
common resources such as doctors, lawyers, and case intake personnel. 
These improvements have provided some offsets to our manpower and 
caseload issues but have not resolved them. Anecdotally, these changes 
lead us to believe we remain substantially under-resourced but we could 
operate at a manpower level slightly less than the 2015 Manpower 
Assessment requirement, but still above what is currently resourced. As 
such, Congress can help address the resource challenges by directing a 
new manpower study to accurately measure service review agency manpower 
requirements and by regularly updating the personnel baseline found in 
10 USC 1559(b).
    b. Without increased staffing, how can you ensure that cases are 
adequately reviewed, records are collected, and that veterans' claims 
are given full and fair consideration? Without increased staffing, we 
accomplished extensive business process re-engineering to help mitigate 
our resulting case adjudication issues and help ensure cases are 
adequately reviewed, records collected and veteran's and current 
service member claims are given full and fair consideration. However, 
due to increased caseloads (caused by growing applications and an 
increase in the complexity of the cases submitted often including 
multiple requests and issues with more supporting documentation), 
without a corresponding increase in manpower, we can only fully ensure 
full and fair consideration to our veterans and service members with a 
corresponding increase in case processing times, often in non-
compliance with congressional direction.
    Ms. Tsongas. We know that PTSD is more prevalent among sexual 
assault survivors than among combat veterans: an estimated one in three 
sexual assault survivors experience PTSD, as opposed to a 10 to 18 
percent prevalence rate of PTSD for combat veterans. Because the vast 
majority of sexual assault survivors do not report that they were 
victimized, however, they may not have been formally diagnosed with 
PTSD while in service. Accordingly, how do you intend to ensure that 
the protections for former service members diagnosed with PTSD in the 
NDAA for FY 2017 are also extended to victims of sexual assault?
    Mr. Teskey. The AFRBA makes a concerted effort to ensure the 
liberal consideration provisions in the FY 2017 NDAA are afforded to 
both combat veterans and victims of sexual assault. The Agency is aware 
that many sexual assault survivors may not report an incident for fear 
of reprisal, embarrassment, or an attempt to blame the victim. There 
are still others who may exhibit an overt mental impediment to duty and 
proceed to complete their term of service, only to develop delayed 
post-service symptoms of PTSD. Consequently, the Agency considers the 
probative value of post-service examinations and disclosures made to 
Department of Veterans Affairs (DVA) medical officials, or other 
civilian medical sources, in assuring a fair and equitable opportunity 
for redress is offered. Close scrutiny of administrative records and 
performance reports is made in search of signs of unexplained 
diminution of performance or commission of minor disciplinary 
infractions in a previously exceptional performer. As a preventive 
measure in future cases, the Air Force Surgeon General has also 
established policy that will ensure all female service members are 
screened on the subject of possible military sexual trauma (MST) before 
clearance for separation for any reason to assure the possible 
existence of MST has been taken into consideration prior to a final 
personnel decision or action; whether a voluntary early separation, 
completion of required active service, or an involuntary separation. 
The Secretary of the Air Force recently issued written guidance on 
invisible wounds and sexual assault to the AFBCMR, which adjudicates 
the vast majority of these petitions. This guidance ensures we make a 
concerted effort to obtain copies of military personnel and service 
treatment records from the National Personnel Records Center (NPRC), as 
well as any post-service treatment records from the DVA. The 
Secretary's guidance directs the Board to apply liberal consideration 
of PTSD in discharge upgrades for both sexual assault victims and 
combat veterans in accordance with the Secretary of Defense guidance 
issued in 2014. The Board follows Title 10, U.S.C., Section 1552(g) and 
requires a written opinion from a staff psychiatrist in cases relating 
to a mental health diagnosis rendered during military service. We also 
obtain mental health opinions even when the diagnosis is made years 
after discharge when the case qualifies for liberal consideration of 
PTSD. The AFDRB strictly follows the requirements prescribed in Title 
10, U.S.C., Section 1553 and includes a board member who is one of our 
staff psychiatrists when reviewing cases related to a mental health 
disorder diagnosed during military service or PTSD or TBI diagnosed on 
active duty as a consequence of a contingency deployment. We also 
ensure liberal consideration of PTSD is applied to both sexual assault 
victims and combat veterans in accordance with the recently enacted 
provisions of the Fiscal Year 2017 National Defense Authorization Act. 
In all cases where MST, PTSD, TBI or a Mental Health (MH) condition is 
either diagnosed or contended, a one of our staff psychiatrists 
thoroughly reviews the applicants medical records and is a voting panel 
member. Under the guidelines of the 2014 NDAA and updated by the 2016 
NDAA, the AFDRB gives express liberal consideration and full 
acknowledgment to all diagnoses and contentions during deliberation. If 
a nexus between the conditions/situations and the misconduct can be 
garnered, it is fully adjudicated within these NDAA guidelines and 
constraints. The AFDRB recognizes that an applicant may not have 
reported being a victim of MST during service. The AFDRB will ensure 
that any undocumented contention regarding MST will the same scrutiny 
and consideration of a documented MST. The AFDRB has also implemented 
reporting procedures for applicants that have not previously reported 
being a victim of MST. The PDBR reassesses the accuracy and fairness of 
the disability ratings assigned to Veterans who were separated from the 
Armed Forces due to unfitness between 11 September 2001 and 31 December 
2009, with a combined disability rating of 20% or less and were not 
found to be eligible for retirement. The PDBR has two additional 
permanent civilian psychiatrists assigned as adjudicators who review 
all cases with PTSD as the unfitting condition. (The PBDR psychiatrists 
are in addition to those supporting the AFBCMR and AFDRB.) To date, the 
PDBR has adjudicated over 10,500 applications, 457 of the cases 
adjudicated were veterans separated with PTSD, of which 21 were the 
victims of sexual assault. In 78% of those PTSD cases adjudicated, the 
Board recommended increase in assigned disability ratings that resulted 
in change of the disability discharges to disability retirement, 
retroactive to the original date of separation. In June 2012, the 
Secretary of Defense committed the PDBR to a comprehensive review for 
Veterans whose PTSD and other mental health diagnoses may have been 
changed to their possible disadvantage or eliminated during the 
military Disability Evaluation System process. In March 2013 
notification letters were mailed to 8,900 former service members 
resulting 1,185 applications. The PDBR determined inappropriate change 
in diagnoses were made in 12% of those cases reviewed and recommended 
corrective actions to the military departments.
    Ms. Tsongas. Federal regulations require the BCMRs and DRBs to make 
all their decisions publicly available. Moreover, decisions are 
required to be indexed ``in a usable and concise form so as to enable 
the public to identify those cases similar in issue together with the 
circumstances under and/or reasons for which the board and/or Secretary 
have granted or denied relief.'' In this way, applicants and their 
lawyers should be able to search for cases to determine applicable 
standards and present their arguments accordingly. However, in reality, 
the reading rooms are very basic, consisting of a list of case numbers. 
Except for the Coast Guard, which has a bare-bones indexing system, 
none of the services indexes its cases at all.
    a. What constraints prevent the boards from indexing and 
summarizing case decisions? b. Why do each of the services use 
different computer systems for maintaining its records? Why wouldn't it 
be more efficient and cost effective to consolidate data systems?
    Mr. Teskey. a. What constraints prevent the boards from indexing 
and summarizing case decisions? Under our most-recently archived AFRBA 
Case Management system (CMTS), a rudimentary ad-hoc index of case types 
and applicant issues was accomplished internal to the AF Review Board 
Agency as necessary. This index did not feed any data management or 
reporting capabilities. Further, an index capability on the reading 
room did not exist; the indexing was cost/labor prohibitive; and it was 
determined that it provided no added value at the time. The capability 
was set aside as the agency selected a new case management system 
(CMTARS). The system does allow for a level of tracking commensurate 
with congressional reporting requirements for specific issues which 
could potentially be leveraged into a meaningful index. This would 
require significant increases in manpower specifically for this purpose 
and also require funding for technological upgrades to reading room 
capabilities. As the Reading Room site is maintained by the Army, we 
would work with the Army to explore a more automated means for doing 
this. A typical Google-like search function exists for the existing 
Army-hosted reading room.
    b. Why do each of the services use different computer systems for 
maintaining its records? Why wouldn't it be more efficient and cost 
effective to consolidate data systems? All service BCMR/DRB reading 
rooms are hosted on the same website, which is maintained by the Army. 
We can work with DOD to design additional features to make it easier 
for applicants and their attorneys to search precedent cases. Data 
management systems are each procured under DOD rule sets to ensure the 
range of their needs are addressed. If a common data system were to be 
procured it would need to be directed and funded by DOD.
    Ms. Tsongas. Why are only two years of Physical Disability Board of 
Review decisions currently published in the Boards of Review Reading 
Room, and what kind of resources would be required to publish and index 
decisions going further back?
    Mr. Teskey. The PDBR was enacted as part of NDAA 2008 and began 
adjudicating cases in June 2009. PDBR decisions dating back to 2009 
were previously published to the Boards of Review Reading Rooms. 
However, personally identifiable information was found on documents 
published to the reading room and all decisional documents from each 
board were removed from the reading rooms and returned to the 
originator for review to verify PII was removed prior to re-posting. 
The PDBR is currently in the process of reviewing previously posted 
decisions and posting as the reviews are completed. The PDBR currently 
has approximately 2,700 cases pending review. The PDBR has requested 
reserve augmentation to assist with an increased workload and plans to 
task the additional personnel with completion of the reading room 
review immediately upon arrival. Of note, this issue is not exclusive 
to the PBDR. The AFDRB has experienced similar PII issues and has 
approximately 2500+ cases to review/redact from years preceding 2013.

                                  [all]
                                  
                                  
                                  
</pre></body></html>
